July 27, 2010

JOSEPH D. MOELLER
MANAGER, REGULATORY REPORTING AND COST ANALYSIS

SUBJECT: Audit Report – Cost and Revenue Analysis Reporting Model
         (Report Number CRR-AR-10-003)

This report presents the results of our self-initiated audit of the Cost and Revenue
Analysis (CRA) reporting model (Project Number 09RG025CRR000). Our objective was
to evaluate the controls over the development and maintenance of CRA reports.

The Postal Accountability and Enhancement Act of 2006 (the Postal Act of 2006)
requires the U.S. Postal Service Office of Inspector General (OIG) to regularly audit the
data collection systems and procedures the Postal Service uses to prepare its reports
analyzing costs, revenue, rates, and quality of service for the Postal Regulatory
Commission (PRC). This audit addresses strategic and financial risk. See Appendix A
for additional information about this audit.

The Postal Service annually prepares the CRA report to determine whether it complied
with the statutory requirement that each class or type of mail service bear the direct and
indirect costs attributable to that class or service. The Cost Attribution group under
Regulatory Reporting and Cost Analysis prepares the CRA report, which is appended to
the Annual Compliance Report (ACR) provided to the PRC.

The Postal Service uses the CRA model, which consists of a set of Excel workbooks
with embedded formulas and programming code that perform cost compilations and
other calculations, to prepare the CRA report. The model uses cost information from the
agency’s accounting system and cost allocation ratios derived from various operational
and statistical information sources to prepare the CRA report. The cost, operational, and
statistical data from various sources, including accounting systems and subsystems
(such as the In-Office Cost System (IOCS) and the Revenue, Pieces, and Weight
(RPW) Report) is input into the CRA model. The final CRA report is prepared by
executing the programs within the CRA model workbooks and completing certain quality
control checks.
Cost and Revenue Analysis Reporting Model                                CRR-AR-10-003



Conclusion

Controls over the development and maintenance of CRA reports were generally
adequate. Specifically, supporting workbooks, formulas, and computer programming
code incorporated into the CRA model function as intended. The structure of the CRA
model enables verification of data from the source systems against the final report. In
addition, Cost Attribution personnel validate computations and cost allocations to
ensure accuracy and maintain adequate supporting documentation.

However, the Postal Service needs to establish proper access controls for its
                                              to limit file access to personnel who
prepare and maintain CRA reports. In addition, the Postal Service can further enhance
controls by improving CRA process documentation and following best practices in
maintaining computer programming documentation for the CRA model.

Access Controls

Access controls are inadequate to safeguard the CRA model and relevant workbooks.
                                                                      , 28 employees have
unrestricted read and write privileges to CRA supporting files
               while only 15 users require access to these files. Personnel from the Cost
Attribution group stated that they use                            for convenience rather
than segregating and limiting access to the CRA files.

Implementing an appropriate control process over CRA model workbooks is critical

          , exposing them to an increased risk of error. According to management,
establishing password controls over individual workbooks would reduce the efficiency of
preparing the CRA report. However, password controls could be implemented over the
programming code within each workbook and administrators could maintain workbooks
separately                   Strengthening access controls will enhance the security of
these files and assist in ensuring that the over $70 billion in costs reported in the CRA
model are accurate.

We recommend the manager, Regulatory Reporting and Cost Analysis, direct the
manager, Cost Attribution, to:

1. Incorporate access controls such as password protection in the modules containing
   computer programming code.

2. Coordinate with Information Technology to implement controls to limit access to the
   Cost and Revenue Analysis model and related workbooks to authorized users.




                                            2
Cost and Revenue Analysis Reporting Model                                                      CRR-AR-10-003



Program Documentation

The Postal Service has not fully documented the process used to prepare the CRA
report. The Postal Service relies on various documentation including the Summary
Description, ACR Schedule, programmers’ manuals, and procedures for CRA report
preparation. However, the various documents do not always complement each other or
they contain obscure descriptions regarding the actual calculations that are performed.
For example, both the fiscal year (FY) 2008 Summary Description and a control file1
listed equipment categories for allocating operating equipment maintenance expense.
However, the two lists contained different equipment categories. While we did verify that
the files contained the correct equipment category, these inconsistencies could lead to
future errors. During the audit, management took corrective action and updated the
FY 2009 Summary Description. Although necessary changes were made to the
program code, the programmers’ manuals have not been updated since 2006 to ensure
that VBA program code conforms to the cost allocation principles described in the
Summary Description of USPS Development of Costs by Segments and Components
prepared annually for the PRC.

Management believes that the milestones developed annually for the CRA process
ensure timely filing of the report to the PRC and that further documentation is not
necessary. However, incomplete or unclear procedures could lead to errors in the CRA
report and deter the timely detection of errors.

We recommend the manager, Regulatory Reporting and Cost Analysis, direct the
manager, Cost Attribution, to:

3. Update the programmer’s manuals to include calculation logic that is consistent with
   established business rules and programming codes.

Programming Best Practices

We reviewed 11 calculation routines within the CRA model and a sample of
components, distribution keys, and calculated values. The CRA model calculations
worked as intended and the documentation provided for the model contained relevant
data; however, we noted that the VBA programming code does not always follow best
practices for optimal performance with regard to:

 Using the option explicit statement2 to require explicit variable declarations.3 VBA
   allows variables to be declared either explicitly (generally at the beginning of the
   script or procedure), or implicitly (as needed within the program). The VBA programs

1
  A workbook titled FY 08.cntl.xls, which is part of the CRA model.
2
  The option explicit statement requires that all variables be declared using a Dimension (Dim) statement. The VBA
program compiler will generate an error when it encounters an undeclared or misspelled variable and the code will
not execute until the error is corrected.
3
  A variable stores temporary information that is used for execution within the procedure, module or workbook.




                                                         3
Cost and Revenue Analysis Reporting Model                                 CRR-AR-10-003



    in the CRA model do not contain the option explicit statement that requires the
    specific naming of variables in the script or individual procedure.

    Explicit variable declaration is considered best practice because the developer must
    define each variable before using them in code. The VBA program compiler will
    generate an error when it encounters an undeclared variable and the code will not
    execute until the error is corrected.

    Use of implicit declarations can lead to unintended results if variables are
    misspelled. For example, if a variable named “iClass” is used in one portion of the
    code, use of “iClas=25” later in the code will result in creation of a new variable
    “iClas” being assigned a value equal to 25, rather than this value being assigned to
    “iClass” as intended. This type of programming error can be difficult to identify (but
    easily corrected once identified) because program execution is not aborted. Using
    the option explicit statement would prevent the use of misspelled variable names
    because these names must be declared in a Dimension statement.

   Specifying variable types in subroutines. The subroutine declarations in the VBA
    program code do not identify the type of each variable used within the subroutine. In
    the absence of variable type information, the VBA environment would consider all
    variables as a generic variant type which can be any type of data element. For
    example, the subroutines in the module for allocating costs use variables without
    type declarations to represent different data elements such as variability factors,
    component numbers, total costs, and spreadsheet names. Use of variants requires
    the VBA compiler to add program code to test which type of data is actually stored in
    the variable, adding overhead to the program.

    Best practices in computer programming require that variables types be correctly
    declared in the subroutine. Incorporating the proper type declarations in subroutines
    will help program portability to newer versions and lead to easier code maintenance
    and faster program execution.

   Retaining obsolete code. Various workbooks contain obsolete VBA code that was
    incorporated into the program during the development stage but this code has not
    been removed from the production routines. For example, all 11 calculation routines
    we reviewed contained “commented out” code that was no longer necessary due to
    programming elsewhere in the calculation routines. Although calculations may not
    be affected by obsolete code, deleting it can simplify code maintenance and prevent
    its inadvertent reactivation. In addition, obsolete code could cause confusion for new
    users.

Postal Service personnel and the contractors who developed the code stated they
believe the current program code produces the results prescribed by the PRC for CRA
reporting and that some obsolete code which has been disabled might be needed in the




                                             4
Cost and Revenue Analysis Reporting Model                                 CRR-AR-10-003



future. However, implementing best practices in programming will help ensure program
integrity and robustness, future compatibility, and efficient program maintenance.

We recommend the manager, Regulatory Reporting and Cost Analysis, direct the
manager, Cost Attribution, to:

4. Conduct a source code review and incorporate best practice methodologies for code
   development and deletion of disabled obsolete code.

Management’s Comments

Management concurred with our findings and recommendations. In response to
recommendation 1, management stated the manager, Cost Attribution, will investigate
adding password protection to the VBA code in the CRA spreadsheets, but added that
there are mitigating controls in place that provide a very high level of protection. In a
subsequent correspondence, management stated they would complete this review by
August 31, 2010.

In response to recommendation 2, management stated they deployed a dedicated
server to store the CRA model and related workbooks. After reviewing workflows and
access requirements, management granted 16 authorized users write access to these
resources.

In response to recommendation 3, management stated that, while updating the CRA
programmer manual for routines added or deleted since 2006 would be useful,
budgetary constraints make the updating of manuals not required by the Postal
Regulatory Commission a low priority. Management also stated that it would first be
necessary to implement any programming changes that they determine necessary
following a source code review and incorporation of best practices.

In response to recommendation 4, management stated that, while they agree with the
intent of the recommendation, a thorough source code review and incorporation of best
practices methodologies would require extensive contractor hours and would not be the
most productive use of limited funding. Further, retention of some “obsolete” code might
be useful in future development work. Management has already deleted some disabled
code in connection with ongoing coding work and will continue similar “housecleaning”
efforts whenever practical so they can implement these changes in an efficient manner.
See Appendix B for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service OIG considers management’s comments responsive to the
recommendations in the report. Regarding recommendation 1, we recognize that there
were compensating controls in place; however, we do not believe these controls were
adequate since a dedicated server with access restrictions was not in place at the time




                                             5
Cost and Revenue Analysis Reporting Model                                CRR-AR-10-003



of our audit. Management stated, in response to recommendation 2, that a dedicated
server with appropriate access controls is now in place. In addition, management
reduced the number of users with write access to CRA spreadsheets placed on the
shared network drive to 16 users and agreed to explore the feasibility of password
protecting the VBA code. Therefore, we consider the actions taken to be responsive to
recommendations 1 and 2.

Regarding recommendations 3 and 4, while we understand that there are financial and
resource restrictions, we believe that fully documenting the CRA process and
incorporating best practice methodologies for code development and deletion of
disabled obsolete code as resources permit will further assist in the accurate and timely
completion of the CRA report.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. The management response to recommendation 2 is
sufficient to close that recommendation; recommendation 1 should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, director, Cost,
Revenue, and Rates, or me at 703-248-2100.


   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Joseph Corbett
    Hadi Alsegaf
    Jeffrey L. Colvin
    Corporate Audit Response Management




                                            6
Cost and Revenue Analysis Reporting Model                               CRR-AR-10-003



                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Act of 2006 requires that each class or type of mail service bear the direct
and indirect costs of that class or service. The Postal Service annually prepares the
CRA report to help determine that it is meeting this legal requirement. The Postal
Service prepares cost and revenue information by product using methods approved by
the PRC.

The Postal Service prepares public and non-public versions of the CRA report. While
the public version contains detailed cost information for market-dominant products and
limited information regarding competitive products, the non-public version includes
detailed cost information relating to competitive products.

The Postal Service’s accounting system contains the basic data required for preparing
the CRA report. However, the accounting system generally does not accumulate
financial data by categories of mail. Apportionment factors, derived from various postal
operational and statistical information sources, are required for developing data for the
CRA report. Some of these sources are dedicated to this purpose and involve extensive
statistical sampling of Postal Service activity during the year. The Postal Service
compares and scales the calculated amounts to actual data in the postal system of
accounts, as appropriate.

The Postal Service uses a model based on Microsoft Excel to develop the CRA report.
Over 30 workbooks and supporting documents are involved in the process of importing
data, calculating the desired output, and generating various workbooks and reports
including the CRA report. The CRA model consists of interlinked worksheets with
approximately 200,000 formulas and 13,000 lines of VBA programming code for
performing calculations and cost allocations. Annually, data from various sources, such
as IOCS, Rural Carrier Cost System, the RPW, and the trial balance are imported
manually and automatically into data workbooks. Once all relevant data are populated,
they are uploaded into the CRA model for the calculation and generation of the CRA
report.

The Cost Attribution group in Regulatory Reporting and Analysis is responsible for
preparing the CRA report and maintaining the CRA model. The Forecasting group in
Finance uses the CRA model for quantitative analysis and forecasting purposes.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate controls over the development and maintenance of the
CRA reports. To accomplish our objective, we reviewed available policies and
procedures. We interviewed personnel in the Cost Attribution office and the PRC. We
also reviewed worksheets and programmers’ manuals provided by the Postal Service to




                                            7
Cost and Revenue Analysis Reporting Model                                    CRR-AR-10-003



gain an understanding of business rules and determine the risks and potential
deficiencies of controls over the development and maintenance of the CRA reporting
modules. We created an inventory of all formulas used in the CRA preparation process.
From this inventory, we evaluated a statistical sample of formulas included in key
worksheets within the model and reviewed them for accuracy and completeness. We
traced selected components' corresponding figures to the the cited source.

We also used a contractor to determine whether the VBA programs used in the CRA
model adequately function to produce expected result in accordance with Summary
Description and other requirements documents. We evaluated the contractor’s findings
to reach our conclusions regarding the VBA program.

We conducted this performance audit from July 2009 through July 20104 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We did not test system production data but instead focused on the
reliability of the VBA code and workbook formulas to produce expected results. We
believe our tests of the reliability of spreadsheet formulas and VBA code provide a
reasonable basis for our findings and conclusions based on our audit objective. We
discussed our observations and conclusions with management officials on
June 3, 2010, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

We did not identify any prior audits of the CRA model.




4
    We suspended this project from December 30, 2009 through May 24, 2010.




                                                        8
Cost and Revenue Analysis Reporting Model                  CRR-AR-10-003



                       APPENDIX B: MANAGEMENT’S COMMENTS




                                            9
Cost and Revenue Analysis Reporting Model        CRR-AR-10-003




                                            10
